'Vi

PROOF OF SERVICE
I, the undersigned, declare that I am over the age of
eighteen (18) years and not a party to the within action. My
residence address is 9950 Topanga Canyon Blvd., #85,
Chatsworth, CA 91311. On March 22, 2021,1 served the
foregoing:
PETITION FOR WRIT OF CERTIORARI
[ X ] BY MAIL: I placed a true copy of the documents
indicated above in sealed envelopes, with first-class postage
thereon fully prepaid. I then placed such envelopes for
deposit in the United States Postal Service this same day.
The addressees for such envelopes were the following:
[see service list attached]
I declare, under the penalty of perjury under the laws
of the United States, that the foregoing is true and correct.
Executed on this 22nd day of March 2021.

Name: Malini Mehta

RECEIVED
l
Proof of Service for Petition for Writ Certiorari

MAR 2 5 2021
supIrImeFcourt'u!sK

v'<

Service List
Mary-Christine Sungaila, Esq.
Marco A. Pulido, Esq.
Haynes and Boone, LLP
600 Anton Blvd., Suite 700
Costa Mesa, CA 92626
(Attorneys for Defendants-Appellees Gregory Hendey;
Patricia Miller; Johanna Klohn; Atilla Uner; Charles
Robinson; John C. Mazziotta; UCLA Health Information
Management Service (Regents of California); Lynne
McCullough; and Janet Napolitano)
Jonathan B. Cole, Esq.
Mark Schaeffer, Esq.
NEMECEK & COLE
16255 Ventura Blvd., Suite 300
Encino, CA 91436
(Attorneys for Defendants-Appellees BUTER BUZARD
FISHBEIN & ROYCE LLP; BLANK ROME; and NEMECEK
& COLE)
Joan E. Trimble, Esq.
Callahan, Thompson, Sherman & Caudill, LLP
2601 Main Street, Suite 800
Irvine, California 92614
(Attorneys for Defendant-Appellee DOUGLAS NIES)
Kenneth R. Pedroza, Esq.
Dana L. Stenvick, Esq.
COLE PEDROZA LLP
2295 Huntington Drive
San Marino, CA 91108
(Attorneys for Defendants-Appellees LUKAS ALEXANIAN
and MCLA PSYCHIATRIC GROUP)

2

Proof of Service for Petition for Writ Certiorari

James J. Kjar, Esq.
Jon R. Schwalbach, Esq.
Brian T. Selogie, Esq.
KJAR, McKENNA & STOCKALPER LLP
840 Apollo Street, Suite 100
El Segundo, California 90245
(Attorneys for Defendant-Appellee WASSER, COOPERMAN
& MANDLES, PC)
Zachary Schwake, Esq.
LAW + BRANDMEYER, LLP
2 North Lake Avenue, Suite 820
Pasadena, CA 91101
(Attorneys for Defendant-Appellee LAW & BRANDMEYER
LLP)
Dale F. Kinsella, Esq.
Gregory P. Korn, Esq.
KINSELLA WEITZMANISER KUMP & ALDISERT LLP
808 Wilshire Boulevard, 3rd Floor
Santa Monica, CA 90401
(Attorneys for Defendant-Appellee JAFFE AND CLEMENS)
Desmond J. Hinds, Esq.
Filomena E. Meyer, Esq.
HINSHAW & CULBERTSON LLP
11601 Wilshire Blvd., Suite 800
Los Angeles, CA 90025
(Attorneys for Defendants-Appellees DeCarolis Family Law
Group, LLP and Trope Fein, LLP)
Michael P. McNamara, Esq.
Alexander M. Smith, Esq.
JENNER & BLOCK LLP
633 West 5th Street Suite 3600
Los Angeles, CA 90071-2054
(Attorneys for Defendant-Appellee Greenberg Traurig LLP)
3

Proof of Service for Petition for Writ Certiorari

*.Jk

Howard N. Wollitz, Esq.
CHARLSTON, REVICH & WOLLITZ LLP
1925 Century Park East, Suite 320
Los Angeles, California 90067-1762
(Attorneys for Defendant-Appellee SCHMID & VOILES)
David E. Azar, Esq.
SILVER LAW GROUP
212 26th Street — Suite 333
Santa Monica, CA 90402
(Attorneys for Defendant-Appellee SILVER LAW GROUP)
Jana I. Lubert, Esq.
Patrik Johansson, Esq.
LEWIS BRISBOIS BISGAARD AND SMITH LLP
633 West 5th Street - Suite 4000
Los Angeles, CA 90071
(Attorneys for Defendant-Appellee LEWIS BRISBOIS
BISGAARD & SMITH LLP)
Timothy C. Donahoe, Esq.
DONAHOE & YOUNG, LLP
16133 Ventura Blvd. - 7th Floor
Encino, CA 91436-2406
(Attorneys for Defendant BOREN, OSHER & LUFTMAN
LLP)
Patrick M. Maloney, Esq.
Craig T. Reese, Esq.
THE MALONEY FIRM, APC
2381 Rosecrans Ave. Suite 405
El Segundo, CA 90245
(Attorneys for Defendant-Appellee MEYER OLSON LOWY
& MEYERS)

4

Proof of Service for Petition for Writ Certiorari

